No. 20-503
IN THE

Supreme Court of the United States
_________
TOFIG KURBANOV,
Petitioner,
v.
UMG RECORDINGS, INC., ET AL.,
Respondents.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
________
BRIEF IN OPPOSITION
________
IAN HEATH GERSHENGORN
Counsel of Record
ISHAN K. BHABHA
ALISON I. STEIN
LAUREN J. HARTZ
JENNER & BLOCK LLP
1099 New York Ave., NW
Washington, DC 20001
(202) 639-6000
IGershengorn@jenner.com

i
QUESTION PRESENTED
Petitioner runs two of the world’s most popular
online piracy websites, using a technology called
“stream-ripping” to illegally distribute copyrighted
music to hundreds of millions of users. Petitioner’s
third-largest market is the United States, with over 30
million U.S. users illegally receiving nearly 100 million
copies of copyrighted materials annually. Petitioner’s
websites have over half a million users in Virginia who
collectively receive more that 1.3 million copyrighted
songs annually. Petitioner requires all of his users to
enter into a contract authorizing him to collect
information about their location. Petitioner then uses
this information not to limit or block access in these
jurisdictions, but rather to target location-specific
advertising directly at them. Petitioner also maintains
an agent at the U.S. Copyright Office for the express
purpose of seeking safe harbor protections under U.S.
copyright law.
The question presented is: Did the Fourth Circuit
correctly conclude that Petitioner purposefully availed
himself of the privilege of doing business in the forum
such that jurisdiction was appropriate in Respondents’
action brought in the U.S. District Court for the Eastern
District of Virginia?

ii
TABLE OF CONTENTS
QUESTION PRESENTED .............................................. i
TABLE OF AUTHORITIES ......................................... iv
INTRODUCTION ............................................................. 1
STATEMENT .................................................................... 5
A.

Stream-Ripping .......................................... 6

B.

Petitioner’s Websites ................................. 7

C.

Petitioner’s Contacts With Virginia
And The United States .............................. 8
1.

Number of users and
quantity of files ............................... 8

2.

Terms of Use ................................... 9

3.

Geo-targeted advertising .............. 9

4.

Other business contacts ............... 10

D.

District Court Proceedings ..................... 11

E.

Decision Below .......................................... 12

REASONS FOR DENYING THE PETITION ......... 16
I.

The Question Presented Does Not
Warrant Review. .................................................. 16
A.

Zippo Has Not “Deeply Split” The
Circuits And Does Not Merit
Review Here. ............................................ 16

B.

There Is No Other Conflict Of
Authority Requiring This Court’s
Review. ...................................................... 21

iii
C.
II.

There Is No Justification For
Immediate Review. .................................. 28

The Decision Below Is Correct........................... 30
A.

Petitioner Purposefully Availed
Himself Of The Privilege Of Doing
Business In The Forum. .......................... 30

B.

The Claims In This Case Arise Out
Of Petitioner’s Activities Directed
At The Forum. .......................................... 36

CONCLUSION ................................................................ 36

iv
TABLE OF AUTHORITIES
CASES
ALS Scan, Inc. v. Digital Service
Consultants, Inc., 293 F.3d 707 (4th Cir.
2002) ....................................................................... 17
AMA Multimedia, LLC v. Wanat, 970 F.3d
1201 (9th Cir. 2020) .................................. 19, 21, 24
Bristol-Myers Squibb Co. v. Superior Court
of California, 137 S. Ct. 1773 (2017) ........... 25, 26
Burger King Corp. v. Rudzewicz, 471 U.S.
462 (1985) .................................................... 1, 27, 31
Cybersell, Inc. v. Cybersell, Inc., 130 F.3d
414 (9th Cir. 1997) ................................................ 19
Fidrych v. Marriott International, Inc., 952
F.3d 124 (4th Cir. 2020) ........................... 17, 18, 28
Illinois v. Hemi Group LLC, 622 F.3d 754
(7th Cir. 2010) ....................................................... 20
International Shoe Co. v. Washington, 326
U.S. 310 (1945) .................................................. 1, 21
Jennings v. AC Hydraulic A/S, 383 F.3d 546
(7th Cir. 2004) ....................................................... 19
Johnson v. Arden, 614 F.3d 785 (8th Cir.
2010) ....................................................................... 19
Keeton v. Hustler Magazine, Inc., 465 U.S.
770 (1984) ........................................................ 31, 32
Lakin v. Prudential Securities, Inc., 348
F.3d 704 (8th Cir. 2003) ....................................... 19

v
Mavrix Photo, Inc. v. Brand Technologies,
Inc., 647 F.3d 1218 (9th Cir. 2011) .... 24-25, 32, 35
Metro-Goldwyn-Mayer Studios Inc. v.
Grokster, Ltd., 545 U.S. 913 (2005) .............. 33, 34
Mink v. AAAA Development LLC, 190 F.3d
333 (5th Cir. 1999) ................................................ 19
Pervasive Software Inc. v. Lexware GmbH
& Co. KG, 688 F.3d 214 (5th Cir. 2012) ............. 19
Plixer International, Inc. v. Scrutinizer
GmbH, 905 F.3d 1 (1st Cir. 2018) .......... 23, 31, 33
Shrader v. Biddinger, 633 F.3d 1235 (10th
Cir. 2011) ............................................................... 20
Toys “R” Us, Inc. v. Step Two, S.A., 318 F.3d
446 (3d Cir. 2003) ................................................. 34
Triple Up Ltd. v. Youku Tudou Inc., 235 F.
Supp. 3d 15 (D.D.C. 2017), aff’d, No. 177033, 2018 WL 4440459 (D.C. Cir. July
17, 2018) ................................................................. 23
Triple Up Ltd. v. Youku Tudou Inc., No. 177033, 2018 WL 4440459 (D.C. Cir. July
17, 2018) ..................................................... 21, 22, 34
uBID, Inc. v. GoDaddy Group, Inc., 623
F.3d 421 (7th Cir. 2010) ................................. 20, 34
Zippo Manufacturing Co. v. Zippo Dot
Com, Inc., 952 F. Supp. 1119 (W.D. Pa.
1997) ............................................................. 2, 16, 17
STATUTES
17 U.S.C. § 512(c) ................................................. 11, 27

vi
OTHER A UTHORITIES
Fed. R. Civ. P. 4(k)(1) ......................................... 11, 12
Fed. R. Civ. P. 4(k)(2) ......................................... 11, 13
Office
of
United
States
Trade
Representative,
2018
Out-of-Cycle
Review of Notorious Markets (2019),
https://ustr.gov/sites/default/files/2018_
Notorious_Markets_List.pdf ............................... 7

1
INTRODUCTION
This action seeks redress for Petitioner Tofig
Kurbanov’s massive copyright infringement through his
popular music piracy websites, FLVTO.biz and
2conv.com. Respondents, U.S. record companies that
collectively own the copyrights to the vast majority of
sound recordings licensed and sold in the United States,
sued Petitioner, a Russian national, in the Eastern
District of Virginia. Petitioner contended the exercise
of personal jurisdiction, not just in Virginia but
anywhere in the United States, would “offend
traditional notions of fair play and substantial justice,”
International Shoe Co. v. Washington, 326 U.S. 310, 316
(1945) (internal quotation marks omitted), that are
designed to ensure a defendant is not “haled into a
jurisdiction solely as a result of ‘random,’ ‘fortuitous,’ or
‘attenuated,’ contacts,” Burger King Corp. v. Rudzewicz,
471 U.S. 462, 475 (1985) (citation omitted). The Fourth
Circuit disagreed in a unanimous opinion that Petitioner
now asks this Court to review.
The decision below did not break new ground or
create a circuit split. It reached the unremarkable
conclusion that Respondents satisfied their prima facie
burden for the first two prongs of the “three-prong test”
for asserting specific personal jurisdiction consistent
with due process. That conclusion was amply supported
by the record. Petitioner’s websites are wildly popular
in Virginia and across the United States. Through a
process called “stream-ripping,” the websites enable
users to isolate the audio portion of a music video and
convert it into a downloadable file, without permission
from, or compensation to, copyright holders like

2
Respondents. In 2018, Petitioner’s websites had almost
32 million U.S. users.
Collectively, those users
conducted over 96 million stream-ripping sessions, and
Petitioner’s websites transmitted hundreds of millions
of songs from his servers to users in the United States.
That makes the United States one of Petitioner’s most
important global markets, ranked third both by number
of users and number of sessions.
This massive U.S. customer base is no surprise to
Petitioner, who is well aware of the location and extent
of his piracy. Indeed, Petitioner collects information
about his users’ locations. But rather than using that
information to block access in certain jurisdictions,
Petitioner capitalizes on his customer base to profit
handsomely through advertisements targeted at the
user’s location. Given these factors, together with
several others demonstrating that Petitioner conducted
business here and invoked the protection of U.S. law
while doing so, the Fourth Circuit rejected Petitioner’s
claim that he lacked fair warning he might be sued in
Virginia.
This Court should deny certiorari. First, Petitioner’s
principal argument for certiorari is a supposed split
among the circuits about “the continuing viability” of
Zippo Manufacturing Co. v. Zippo Dot Com, Inc., 952 F.
Supp. 1119 (W.D. Pa. 1997). In that decision, issued
when the Internet was in its infancy, a district court
offered a framework that looked to a website’s level of
“interactivity” to help determine whether to exercise
personal jurisdiction. Today, contrary to Petitioner’s
contentions, no circuit court treats Zippo’s approach as
dispositive, and all circuits agree that Zippo is

3
instructive only insofar as it sheds light on the
traditional jurisdictional principles established by this
Court. Regardless, even if a split on Zippo existed, this
case is not a suitable vehicle because Zippo was not
determinative for the outcome: the Fourth Circuit
conducted a holistic inquiry that is consistent with this
Court’s precedent and at the same time precisely what
Zippo would require for websites like Petitioner’s that
involve at least some degree of interactivity.
Second, focusing on the particular facts the Fourth
Circuit relied on to support its jurisdictional analysis,
Petitioner claims the decision below effects a “sea
change” and a “deep circuit split.” But that is wrong. In
each cited decision, the circuit court applied the
framework set forth in International Shoe—the same
framework the Fourth Circuit applied here—to the
totality of the circumstances it confronted. Petitioner
identifies no circuit that would have reached a different
result on the facts of this case, and tellingly none of those
courts has identified a circuit split with any other.
Indeed, Petitioner’s entire approach to identifying
circuit splits is fundamentally misguided. He isolates
each of his extensive contacts and claims a conflict with
some other case in which that contact alone was
insufficient in light of the entire record to justify the
assertion of jurisdiction. But personal jurisdiction is a
holistic analysis, as the Fourth Circuit correctly
recognized. Merely citing cases in which a particular
factor in isolation failed to justify jurisdiction does not
demonstrate a split on the probity of that factor.
Third, review here is in any event premature.
Neither the Fourth Circuit nor the District Court has

4
conclusively determined that the exercise of jurisdiction
comports with due process. After addressing purposeful
availment and determining that Respondents’ claims
arise out of Petitioner’s forum-related contacts, the
Fourth Circuit remanded for the District Court to
consider the third prong of the analysis: whether the
exercise of jurisdiction here would be “constitutionally
reasonable.” The District Court has not conducted that
analysis.
Fourth, Petitioner vastly overstates the scope and
impact of the decision below in his request for immediate
intervention. Petitioner’s dire forecasts of disastrous
consequences for foreign and domestic defendants
cannot be squared with the ruling, which was narrow
and fact-bound and (as just noted) did not even decide
the constitutionality of exercising personal jurisdiction
here. If by some chance the consequences Petitioner
fears materialize in some future case, the Court can
address the issue then.
Finally, the decision below is correct. As the Fourth
Circuit understood, Petitioner can claim no surprise at
being haled into court here. The United States is
Petitioner’s third-largest global market and Virginia is
one of his biggest U.S. markets; the U.S. and Virginia
markets are massive in terms of the number of users,
visits, and files transmitted; Petitioner earns substantial
revenues from advertisements targeted to these
markets; those revenues are earned precisely because
Petitioner entices users with the availability of
Respondents’ popular sound recordings; Petitioner has
designed his websites and operations so they are
attractive to U.S. users in particular; and Petitioner has

5
registered an agent with the U.S. Copyright Office, the
purpose of which is to invoke the protections of U.S.
copyright law in U.S. courts. The contacts that make
Petitioner amenable to suit here are by no means
“random, fortuitous, or attenuated.”
That result makes good sense. If Petitioner were
making hefty profits by shipping millions of copyrighted
physical record albums into Virginia, there would be no
doubt that Petitioner purposefully availed himself of the
privilege of doing business there; the result is no
different simply because those record albums are
electronic rather than vinyl. Indeed, any other result
would be disastrous for U.S. copyright holders: pirate
websites would get a roadmap for how to target millions
of U.S. users and profit from the massive infringement
of U.S. copyrights, all the while remaining beyond the
reach of U.S. courts. As the Fourth Circuit correctly
realized, nothing in the Due Process Clause compels that
perverse result.
STATEMENT
Respondents are twelve record companies that
produce, distribute, and license approximately 85% of all
legitimate commercial sound recordings in the United
States. Pet. App. 3-4; see also Pet. ii (listing companies).
Petitioner is a Russian national who owns and operates
two of the world’s most notorious music piracy websites,
FLVTO.biz and 2conv.com (“FLVTO” and “2conv” or,
together, the “websites”). Pet. App. 4. This action seeks
redress for Petitioner’s violations of the Copyright Act.

6
A. Stream-Ripping
Respondents license the rights to perform their
copyrighted works to Internet-based streaming services
such as Apple Music, Pandora, Spotify, and, most
relevant here, YouTube. JA15.1 These services allow
users to listen to sound recordings online but do not give
users access to a permanent digital copy. JA10, 14-15.
YouTube and other streaming services employ
sophisticated technology to prevent users from
downloading or copying the videos available on their
websites. But Internet pirates, including Petitioner,
have found illegal ways to circumvent these safeguards.
Once the control measures are circumvented, pirates can
gain access to the audiovisual files, make unauthorized
copies of the audio portions, and distribute those copies
over the Internet. Pet. App. 4; see JA15-24. This process
is known as “stream-ripping.” Pet. App. 4. It deprives
record companies like Respondents of substantial
revenues by allowing users to obtain permanent copies
of songs without purchasing them. JA17-18.
The scale and scope of the problem is staggering.
Stream-ripping has quickly become the most popular
form of music piracy in the world. JA9, 17. Nearly half
of all Internet users between the ages of 16 and 24
regularly use stream-ripping to acquire music, and
stream-ripping services illegally copy and distribute
tens of millions—or even hundreds of millions—of tracks
every month. JA9, 17-18.

1 “JA” refers to the Joint Appendix in the Fourth Circuit.

7
B. Petitioner’s Websites
FLVTO and 2conv are two of the most popular
stream-ripping websites worldwide; indeed, they are
among the most popular websites of any kind on the
Internet. Pet. App. 6; see JA144-56.
The websites are enormously popular in the United
States and elsewhere because they facilitate the illegal
stream-ripping of popular music. Pet. App. 6; see, e.g.,
JA19-20, 22-23 (2conv advertises how to get “favourite
[sic] tracks … for free”). The tutorials on the websites
feature sound recordings by artists such as Michael
Jackson, Justin Bieber, and Madonna. JA24. As
Respondents have alleged, a substantial portion of that
music is protected by their copyrights, and the websites
thus inflict substantial injury on their businesses. JA1011. The United States government agrees, identifying
Flvto.biz and 2Conv.com as “examples of the streamripping phenomenon that continues to threaten
legitimate streaming audio and video services, music
performers, and composers.” See Office of United States
Trade Representative, 2018 Out-of-Cycle Review of
Notorious Markets, at 18 (2019), https://ustr.gov/sites/
default/files/2018_Notorious_Markets_List.pdf.
Petitioner’s websites make online piracy as easy as
the click of a button. To begin, a user enters a publicly
available web address for a YouTube video at the
FLVTO homepage or on the FLVTO mobile app. JA1823, 76. The user then chooses the desired file format and
clicks “Convert.” Ibid. In a matter of seconds, FLVTO
illegally circumvents YouTube’s safeguards and copies
the content; it then converts the audio track into the
type of file selected by the user. JA21-22, 76. The result

8
is a permanent and unauthorized copy of the sound
recording found in the video. JA22. FLVTO then
presents the user with a “download” link, and, when the
user clicks on that link, FLVTO transmits the resulting
copy directly from its servers to the user’s phone or
computer. JA21-22, 76; Pet. App. 4. 2conv uses the same
basic process. JA20, 22.
C. Petitioner’s Contacts With Virginia And The
United States
Petitioner’s websites operate on a massive scale in
Virginia and the United States as a whole, and
Petitioner takes steps to exploit these markets.
1. Number of users and quantity of files
According to Petitioner’s own data, FLVTO had 26.3
million users in the United States between October 2017
and September 2018. Pet. App. 26. That included
448,426 users in Virginia. JA88. During the same
period, 2conv had 5.37 million users in the United States
and 94,342 users in Virginia. JA78-79. Collectively,
Petitioner’s websites had nearly 32 million users in the
United States (nearly 10% of the country’s population)
and more than half a million users in Virginia (over 6%
of Virginia’s population). JA78-79, 87-88; see Pet. App.
6. The United States was the third-largest market for
Petitioner’s websites by total number of users and total
number of visits. Pet. App. 6. Within the United States,
Virginia was FLVTO’s 13th largest market and 2conv’s
11th largest market. Pet. App. 6-7.
Users visit frequently and spend significant time
during each visit. See JA87-88 (FLVTO data on number
of visits); JA78-79 (same for 2conv); see also JA149

9
(discussing amount of time users spend per visit). The
scale of infringement the websites accomplish is mindboggling. In 2018, Petitioner’s websites transmitted
over 96 million files into the United States, including
more than 1.35 million into Virginia. See JA78-79, 87-88,
149, 154.
Respondents have alleged that all or
substantially all of these file transfers involve infringing
copies of copyrighted sound recordings. JA10, 17, 23-24.
2. Terms of Use
Before users can download any audio files, they must
agree to Terms of Use. Pet. App. 5. The websites
explain that the Terms of Use “constitute a contractual
agreement between you [the user] and us [the website].”
Ibid. (quoting JA158). The Terms of Use give Petitioner
“the right to take appropriate action against any user …
including civil, criminal, and injunctive redress.” Ibid.
(quoting JA158, 168). Users further agree that “[f]or
any claim brought by us against you, you agree to submit
and consent to personal jurisdiction in and the venue of
the courts in the Russian Federation and anywhere else
you can be found.” JA166, 174 (capitalization omitted);
see Pet. App. 5. In other words, Petitioner reserves the
right to file suit against his users in Virginia courts and
in the courts of the United States.
3. Geo-targeted advertising
Although users do not pay money for Petitioner’s
stream-ripping services, FLVTO and 2conv are very
much commercial enterprises. Like many websites, they
derive their revenue from the advertisements they host.
Pet. App. 5. Based on their investigation, Respondents
alleged the websites featured advertisements that

10
targeted users according to their specific location,
including the United States and Virginia. Ibid. This
form of advertising, known as “geo-targeting,” is
intended to maximize the number of visitors who click
on an advertisement appearing on Petitioner’s websites
(the “click-through rate”). Ibid. The theory is that
Virginians (for example) are more likely to click on
advertisements that are specifically targeted to a
Virginia audience. The higher the click-through rate,
the more valuable the advertising space on Petitioner’s
websites and the greater his revenues. JA11.
Petitioner concedes that third-party advertisers may
be targeting specific advertisements to users in specific
locations. JA70. Although Petitioner insists he has no
role in selecting the particular advertisements on his
websites, the record indicates that Petitioner plays an
instrumental role in geo-targeting by collecting the
location data from visitors. In the privacy policies that
appear on FLVTO and 2conv, Petitioner advises users
that he may collect “your IP address, country of origin
and other non-personal information about your
computer or device” and that the information may be
used “to provide targeted advertising based on your
country of origin and other personal information.”
JA176, 178; see Pet. App. 6. In other words, the privacy
policies indicate that Petitioner himself collects location
data about his users and then passes that information to
advertisers so they can geo-target. Petitioner thus has
full knowledge of where his users are located. JA78-94.
4. Other business contacts
To facilitate his U.S. operations, Petitioner has
specifically invoked the protections of U.S. law.

11
Petitioner has, for example, registered a Digital
Millennium Copyright Act (DMCA) agent with the U.S.
Copyright Office. Pet. App. 7. The sole purpose of this
registration is to seek shelter within the DMCA’s safe
harbor if Petitioner is sued for copyright infringement
under U.S. law in U.S. courts. See 17 U.S.C. § 512(c).
Petitioner has several additional contacts in the
United States and Virginia to facilitate his online piracy
operations. He does business with at least one American
advertising broker to sell space on his websites for geotargeted advertisements—Advertise.com, based in
Sherman Oaks, California. JA118, 185. He registered
the domain names “FLVTO” and “2conv” through
GoDaddy.com, an American domain-name registrar.
Pet. App. 7. He selected top-level domains (the suffixes
“.com” and “.biz”) that are administered by companies
headquartered in Virginia. Ibid. And, until recently,
Petitioner contracted with Amazon Web Services to
host his websites on front-end servers in the United
States. Ibid. For a significant period of time, including
within the three-year limitations period that applies to
Respondents’ claims, those front-end servers were
located in Ashburn, Virginia. Ibid.
D. District Court Proceedings
On August 3, 2018, Respondents filed suit in the U.S.
District Court for the Eastern District of Virginia,
alleging five separate violations of the Copyright Act.
See Pet. App. 28.
Respondents alleged specific
jurisdiction under Federal Rule of Civil Procedure
4(k)(1) because of Petitioner’s contacts with Virginia, or,
alternatively, under Rule 4(k)(2) because of Petitioner’s
contacts with the United States as a whole. Pet. App. 8.

12
Petitioner appeared through counsel and filed a motion
to dismiss for lack of personal jurisdiction.
The District Court granted Petitioner’s motion. Pet.
App. 37. As the District Court saw it, Petitioner “took
no action through the Websites that would demonstrate
purposeful targeting of Virginia or the United States.”
Pet. App. 35. In so holding, the District Court dismissed
the transmission of hundreds of millions of infringing
files from Petitioner’s servers to his U.S. users as “in the
unilateral control of the users as they initiate the
contacts.” Pet. App. 36. The District Court likewise
deemed irrelevant the handsome profits Petitioner
makes from geo-targeted advertisements. Pet. App. 35.
Having concluded that Petitioner “did not purposefully
avail himself of the benefits and protections of either
Virginia or the United States,” the District Court
declined to consider whether an exercise of personal
jurisdiction over Petitioner would be constitutionally
reasonable. Pet. App. 36.
E. Decision Below
The Fourth Circuit unanimously reversed.
It
considered de novo whether Respondents made a prima
facie showing of specific personal jurisdiction over
Petitioner. Pet. App. 9. Consistent with the applicable
standard, the court construed all allegations in favor of
Respondents and drew all inferences in favor of the
existence of jurisdiction. Pet. App. 9-10.
The court began its analysis with Rule 4(k)(1), which
provides for the exercise of personal jurisdiction where
the defendant is “subject to the jurisdiction of a court of
general jurisdiction in the state where the district court

13
is located.” Pet. App. 10 (quoting Fed. R. Civ. P. 4(k)(1)).
The court explained that because Virginia’s long-arm
statute is coterminous with the Due Process Clause of
the Fourteenth Amendment to the U.S. Constitution,
the statutory and constitutional inquiries merged into a
single analysis. Pet. App. 10-11. The court also noted
that under Rule 4(k)(2), the alternative basis that
Respondents invoked for jurisdiction, “the same due
process analysis” was necessary, “only the analysis is
applied to the entirety of the United States, as opposed
to Virginia.” Pet. App. 11. For both rules, the analysis
had three prongs: “(1) the extent to which the defendant
purposefully availed itself of the privilege of conducting
activities in the State; (2) whether the plaintiffs’ claims
arise out of those activities directed at the State; and
(3) whether the exercise of personal jurisdiction would
be constitutionally reasonable.” Pet. App. 13 (quotation
marks omitted).
Starting with purposeful availment, the court
emphasized the need to examine “the quality and nature
of the defendant’s connections, not merely the number of
contacts between the defendant and the forum state.”
Pet. App. 14 (emphasis in original) (citation omitted). In
addition, the court recognized “the need to adapt
traditional notions of personal jurisdiction[]” where the
contacts involve online activities, but confirmed that the
“touchstone” of its inquiry remained whether Petitioner
engaged in activity purposefully directed at the forum
state. Pet. App. 15 (citation omitted).
The court answered that question in the affirmative.
Pet. App. 15-19. Although noting that the websites are
“interactive to a degree,” Pet. App. 15-16, the court

14
found it irrelevant whether the websites qualified as
“highly interactive” or “semi-interactive” on Zippo’s
sliding scale, a distinction that was “not determinative
for purposes of personal jurisdiction,” Pet. App. 16.
Rather, the court focused on several additional factors
showing that Petitioner had purposefully availed himself
of the privilege of doing business in the forum—
including the volume of unique visitors and visits, the
commercial nature of the relationship between the
websites and their visitors, the geo-targeting of
advertisements based on user location, the registration
of a DMCA agent with the Copyright Office, and other
contacts with U.S.-based businesses. Pet. App. 16-19.
The court flatly rejected Petitioner’s “attempt to
distance himself from th[e] commercial arrangement”
through which he benefits from his business. Pet. App.
17. While acknowledging that the websites are free to
use, the court noted “[i]t is hardly unusual for websites
to be free to use in today’s Internet because many
corporations ‘make money selling advertising space, by
directing ads to the screens of computers employing
their software.’” Ibid. (quoting Metro-Goldwyn-Mayer
Studios Inc. v. Grokster, Ltd., 545 U.S. 913, 926-27
(2005)). Consistent with that practice, Petitioner “has
made a calculated business choice not to directly charge
visitors in order to lure them to his Websites.” Ibid.
But, once visitors are there, he requires them to accept
various contractual terms giving him the right to collect
their IP address and country of origin, and he
“ultimately profits from visitors by selling directed
advertising space and data collected to third-party
brokers, thus purposefully availing himself of the

15
privilege of conducting business within Virginia.” Ibid.
Notwithstanding that Petitioner uses brokers, he still
“facilitates targeted advertising by collecting and selling
visitors’ data,” and so “the fact remains that he earns
revenues precisely because the advertising is targeted
to visitors in Virginia.” Pet. App. 18 (citing Mavrix
Photo, Inc. v. Brand Techs., Inc., 647 F.3d 1218, 1230
(9th Cir. 2011); uBID, Inc. v. GoDaddy Group, Inc., 623
F.3d 421, 428 (7th Cir. 2010)).
The court then considered whether the claims arose
from Petitioner’s activities directed at the forum. Pet.
App. 19. Again, it answered yes. Petitioner “made two
globally accessible websites and Virginia visitors used
them for alleged music piracy,” plus Petitioner “knew
the Websites were serving Virginian visitors and yet
took no actions to limit or block access, all while profiting
from the data harvested from the same visitors.” Pet.
App. 19-20. The court disagreed with Petitioner that
Respondents were “elevat[ing] the significance of nonclaim related contacts” by focusing on the raw number
of visitors; it was precisely the large audience in Virginia
and the United States that allowed Petitioner to
“actively facilitate[] the alleged music piracy through a
complex web involving Virginia visitors, advertising
brokers, advertisers, and location-based advertising.”
Pet. App. 20-21.
Finally, the court turned to the third prong:
constitutional reasonableness. Pet. App. 21. Because
the District Court never reached that question, the court
declined to address it on appeal and instead remanded
for the District Court to perform the reasonability
analysis in the first instance. Pet. App. 21-22.

16
Petitioner subsequently petitioned for en banc
rehearing. No judge requested a poll, and the Fourth
Circuit denied the petition. Pet. App. 40.
REASONS FOR DENYING THE PETITION
I.

The Question Presented Does Not Warrant
Review.

The Fourth Circuit rendered a straightforward
decision, correctly applying settled law on specific
personal jurisdiction over foreign defendants.
Petitioner claims nonetheless that this Court’s review is
urgently needed, first, to address “the continuing
viability” of Zippo, and second, to provide Internetspecific guidance to reconcile circuit court decisions that
are in disarray. Petitioner is wrong on both counts:
there is no circuit split on Zippo, and there is no
disagreement among the circuits regarding the
application of personal jurisdiction to Internet-based
activities.
A. Zippo Has Not “Deeply Split” The Circuits
And Does Not Merit Review Here.
Petitioner is wrong that the circuits have split over
whether and how to apply Zippo Mfg. Co. v. Zippo Dot
Com, Inc., 952 F. Supp. 1119 (W.D. Pa. 1997). Pet. 32-35.
Regardless, a dispute over Zippo provides no basis for
review, since the application of Zippo had no impact on
the result the Fourth Circuit reached below.
Zippo is a district court decision from 1997, a time
when both the Internet and the case law applying
principles of personal jurisdiction to the Internet
remained in their “infant stages.” 952 F. Supp. at 1123.

17
Because the authority in this context was “scant,” the
district court in Zippo developed a “sliding scale”
approach to jurisdiction that placed “interactive”
websites on one end of the spectrum and “passive”
websites on the other. Id. at 1124. The district court
found that jurisdiction was proper for the former but not
for the latter. Ibid. Between those extremes, the
district court placed “semi-interactive” websites for
which “the exercise of jurisdiction is determined by
examining the level of interactivity and commercial
nature of the exchange of information that occurs.” Ibid.
In other words, websites in the middle of the spectrum
required a fact-intensive inquiry.
Petitioner claims a circuit split over Zippo.
According to Petitioner, the Fourth Circuit has joined
the Fifth, Eighth, and Ninth Circuits in embracing
Zippo, deepening a conflict with the Seventh and Tenth
Circuits, which purportedly reject it. Pet. 10-11. But
Petitioner misreads the cases he cites as expressing a
disagreement that does not exist.
For starters, Petitioner relies on stale cases. To
support his claim that four circuits embrace the sliding
scale, he points to decisions issued close in time to Zippo,
see Pet. 10, while ignoring more recent opinions
clarifying the courts’ latest thinking. For example, while
Petitioner cites ALS Scan, Inc. v. Digital Service
Consultants, Inc., 293 F.3d 707, 714 (4th Cir. 2002), for
the proposition that the Fourth Circuit has adopted
Zippo, Petitioner fails to acknowledge a decision issued
earlier this year (almost two decades after ALS Scan)
cautioning against overreliance on the sliding scale.
Fidrych v. Marriott International, Inc. described the

18
substantial technological changes since Zippo,
explaining that on the Internet today, “[i]t is an
extraordinarily rare website that is not interactive at
some level.” 952 F.3d 124, 141 n.5 (4th Cir. 2020)
(internal quotation marks omitted). Thus, the Fourth
Circuit found, placing “too much significance on the mere
fact of interactivity [risks] losing sight of the key issue
in a specific jurisdiction case—whether the defendant
has purposefully directed [his] activities at residents in
the forum.” Id. at 142 (internal quotation marks
omitted).
The decision below is cut from the same cloth. The
court recognized “the need to adapt traditional notions
of personal jurisdiction” where, as here, a case involves
“online activities and websites,” and it noted that the
sliding scale in Zippo can “help determine when a
defendant’s online activities are sufficient to justify the
exercise of personal jurisdiction.” Pet. App. 15 & n.8.
But, echoing Fidrych, the court recognized the limited
role that Zippo plays today, stating that the level of
interactivity “is not determinative for purposes of
personal jurisdiction.” Pet. App. 16. “Regardless of
where on the sliding scale a defendant’s web-based
activity may fall,” the court explained, “the touchstone
remains that an out-of-state person have engaged in
some activity purposefully directed toward the forum
state … creat[ing] a substantial connection with the
forum state.” Pet. App. 15 (quotation marks omitted)
(alterations in original); see also Pet. App. 16 (quoting
Fidrych for same point).
Each circuit on this side of Petitioner’s supposed split
has refined its analysis in a similar way. For example,

19
since Mink v. AAAA Development LLC, 190 F.3d 333,
336 (5th Cir. 1999), the Fifth Circuit has clarified that
Zippo is not determinative:
“internet-based
jurisdictional claims must continue to be evaluated on a
case-by-case basis, focusing on the nature and quality of
online and offline contacts to demonstrate the requisite
purposeful
conduct
that
establishes
personal
jurisdiction.” Pervasive Software Inc. v. Lexware GmbH
& Co. KG, 688 F.3d 214, 227 n.7 (5th Cir. 2012). Likewise,
years after Lakin v. Prudential Securities, Inc., 348
F.3d 704, 711 (8th Cir. 2003), the Eighth Circuit
explained that Zippo is “instructive”—not binding.
Johnson v. Arden, 614 F.3d 785, 796 (8th Cir. 2010). And
while Petitioner cites Cybersell, Inc. v. Cybersell, Inc.,
130 F.3d 414, 418 (9th Cir. 1997), as evidence that the
Ninth Circuit relies on Zippo, he disregards the fact that
the court’s more recent decisions about specific personal
jurisdiction have disregarded it.
E.g., AMA
Multimedia, LLC v. Wanat, 970 F.3d 1201, 1220 n.2 (9th
Cir. 2020) (“[R]egardless of whether the site is passive,
interactive, or semiinteractive, jurisdiction is proper
here.”).
The “other side” of Petitioner’s split reveals exactly
the same position. The Seventh Circuit, for example, has
at times used Zippo’s interactivity paradigm, see, e.g.,
Jennings v. AC Hydraulic A/S, 383 F.3d 546, 549-50 (7th
Cir. 2004) (rejecting exercise of personal jurisdiction
over “passive” website), yet has recognized that
“Zippo’s sliding scale was always just short-hand for
determining whether a defendant had established
sufficient minimum contacts with a forum to justify
exercising personal jurisdiction over him in the forum

20
state,” Illinois v. Hemi Grp. LLC, 622 F.3d 754, 759 (7th
Cir. 2010). Thus, the Seventh Circuit has declined “to
adopt or to reject” the sliding scale, holding that “the
interactivity of that website is relevant to, but not
dispositive of, the sufficiency of th[e defendant’s]
contacts.” uBID, Inc. v. GoDaddy Grp., Inc., 623 F.3d
421, 431 n.3 (7th Cir. 2010). As the Tenth Circuit aptly
summarized, even those courts that consider Zippo
“tend to employ it more as a heuristic adjunct to, rather
than a substitute for, traditional jurisdictional analysis.”
Shrader v. Biddinger, 633 F.3d 1235, 1242 n.5 (10th Cir.
2011).
In short, the case law reveals consensus, not conflict,
on the key point: Zippo is not dispositive, and to the
extent it remains useful, it is only in aid of applying the
foundational principles that drive this jurisdictional
analysis.
Regardless, this case would be a poor vehicle to
address the Zippo framework. As noted, the Fourth
Circuit cited Zippo’s sliding scale, but it had no impact
on the result the Fourth Circuit reached. Pet. App. 16
(explaining that level of interactivity was “not
determinative”). To the contrary, the court made clear
that “attach[ing] too much significance on the mere fact
of interactivity” would “risk losing sight of the key issue
in a specific jurisdiction case—whether the defendant
has purposefully directed [his] activities at residents of
the forum.” Ibid. (quotation marks omitted) (alteration
in original). And on that “key issue” the court conducted
a full analysis, unhindered by Zippo. Pet. App. 16-19.
Thus, if this Court were to grant certiorari and reject
Zippo’s sliding scale, it would make no difference here.

21
B. There Is No Other Conflict Of Authority
Requiring This Court’s Review.
Petitioner also contends that the decision below
effects a “sea change” in personal jurisdiction law and
creates a “deep circuit split.” Pet. 13. Nonsense. There
is no conflict of authority for this Court to resolve. In
each of the cited decisions, the circuit court faithfully
applied traditional notions of personal jurisdiction to
situations in which a defendant’s contacts with a forum
involved electronic activity directed via the Internet.
Using the fact-intensive “nature and circumstances”
standard set forth in International Shoe Co. v. State of
Washington., Office of Unemployment Compensation &
Placement, 326 U.S. 310 (1945), each court applied that
test to the totality of the circumstances it confronted.
And in no circuit would this case have been decided
differently.
1. Petitioner’s first argument for a split relies on the
D.C. Circuit’s decision in Triple Up Ltd. v. Youku Tudou
Inc., No. 17-7033, 2018 WL 4440459 (D.C. Cir. July 17,
2018), and the Ninth Circuit’s decision in AMA
Multimedia, LLC v. Wanat, 970 F.3d 1201 (9th Cir.
2020). But the former is an unpublished per curiam
judgment easily distinguishable on its facts, and the
latter expressly disclaimed any disagreement with the
decision in this case. Hardly the stuff of a “deep circuit
split.”
Start with the D.C. Circuit’s decision in Triple Up.
At the outset, splits with unpublished decisions are not
generally the basis for review. Regardless, nothing in
Triple Up remotely conflicts with the decision below.
Contra Pet. 14-15, 16, 18. In Triple Up, a Seychelles

22
corporation that owned the exclusive right to broadcast
three Taiwanese movies in the U.S. sued Youku, a
Chinese corporation, in federal court. For Youku, “less
than one quarter of one percent of its monthly viewers
c[ame] from the United States.” 2018 WL 4440459, at *1.
The only person alleged to have viewed the three movies
here was the plaintiff’s lawyer, and when Youku learned
that the videos were available in the United States, it
removed all versions within 24 hours. Ibid. The D.C.
Circuit found there was no “plausible allegation that
Youku designed its websites even to make them
generally usable by viewers in the United States, let
alone to purposefully target them. The text on its
websites is entirely in Mandarin Chinese.” Id. at *2.
Moreover, Youku had not registered an agent with the
Copyright Office. Ibid. Unsurprisingly, the D.C. Circuit
found no personal jurisdiction.
To be sure, against that backdrop, the D.C. Circuit
concluded that the existence of geo-targeted advertising
on the website could not by itself justify the exercise of
personal
jurisdiction—particularly
where
“the
advertisements accompanying two of the three films
were in Mandarin for Chinese video games.” Id. at *3.
But Triple Up does not stand for the extraordinary
proposition that geo-targeted advertising is irrelevant.
See Pet. 16-20. Rather, it stands for the unremarkable
proposition that geo-targeting advertising is but one
factor to be considered in the holistic analysis of a
defendant’s contacts with a forum. In that holistic
analysis, Petitioner could not be more differently
situated from Youku. Instead of having less than 0.25%
of his users come from the United States, it is his third-

23
largest market, constituting almost 9% of his user base.
Instead of having three infringing movies viewed only
by a plaintiff’s lawyer and taken down immediately,
Petitioner’s websites continue to facilitate tens of
millions of stream-ripping sessions that infringe
Respondents’ copyrights.
Instead of not having
registered with the Copyright Office, Petitioner has
designated a DMCA agent and invokes the statute in his
Terms of Use. And instead of a website in Mandarin
Chinese, Petitioner’s websites appear in English in the
United States, and the advertisements are likewise in
English and targeted at U.S. (and Virginia) users.2
Petitioner’s reliance on AMA fares no better in
manufacturing a split. In AMA, a Nevada-based
company
brought
copyright
and
trademark
infringement claims against Marcin Wanat, a Polish
2 Petitioner alleges a circuit split based on the Fourth Circuit’s

discussion of Petitioner’s failure to geo-block as one factor
supporting jurisdiction. But the lone case on the other side of the
“split” is a decision by a district court, Pet. 13-14 (relying on Triple
Up Ltd. v. Youku Tudou Inc., 235 F. Supp. 3d 15, 25 (D.D.C. 2017)),
whose extended discussion of geo-blocking was not endorsed by the
D.C. Circuit in its unpublished affirmance. Indeed, the only other
court of appeals with an extended discussion of geo-blocking
reached the same result as the Fourth Circuit here. See Plixer Int’l,
Inc. v. Scrutinizer GmbH, 905 F.3d 1, 9 (1st Cir. 2018) (holding that
defendant’s “failure to implement [geo-blocking] restrictions,
coupled with its substantial U.S. business, provides an objective
measure of its intent to serve customers in the U.S. market and
thereby profit”). Petitioner is not subject to “universal personal
jurisdiction” based solely on his failure to implement geo-blocking,
Pet. 15, but his argument against purposeful availment is all the
more implausible given that Petitioner employs location data not to
avoid this jurisdiction but to target it.

24
citizen and a partner in the company that owned the
website accused of infringement. AMA pointed to
certain evidence of express aiming that also exists in this
case—such as Wanat’s use of geo-targeted
advertisements, his website’s substantial U.S.-viewer
base, and his website’s terms of service. 970 F.3d at
1210. But AMA failed to adduce evidence of other
contacts that is present here. Indeed, the Ninth Circuit
expressly addressed and distinguished the Fourth
Circuit’s decision below. Id. at 1212 n.8. In particular,
the Ninth Circuit emphasized that Petitioner registered
a DMCA agent, contracted with a U.S.-based
advertising broker, and used U.S.-based servers. Ibid.
The same could not be said for Wanat: “None of those
specific actions aimed at the United States, including
taking advantage of U.S. laws ‘for certain safe harbor
defenses to copyright infringement claims,’ are present
here.” Ibid. (quoting Pet. App. 18-19). Having expressly
disclaimed any conflict with the decision below, AMA
provides no basis for review.
Nor, again, can Petitioner accurately portray AMA
as adopting a bright-line rule that geo-targeted
advertising is irrelevant to the jurisdictional inquiry.
AMA itself notes that such advertising may be relevant
in combination with “other indicia of [defendant’s]
personal direction.” 970 F.3d at 1211. And in Mavrix
Photo, Inc. v. Brand Technologies, Inc., the Ninth
Circuit found a California court had specific jurisdiction
over Brand, an Ohio corporation that ran a website
publishing allegedly infringing photographs, relying in
substantial part on the purposeful targeting of California
through advertisements directed to Californians. 647

25
F.3d 1218, 1230 (9th Cir. 2011) (“The fact that the
advertisements targeted California residents indicates
that Brand knows—either actually or constructively—
about its California user base, and that it exploits that
base for commercial gain by selling space on its website
for advertisements.”).
2. Petitioner next claims a direct conflict between
the decision below and decisions of this Court such as
Bristol-Myers Squibb Co. v. Superior Court of
California, 137 S. Ct. 1773 (2017), holding that only
“claim-related contacts” are relevant to the
jurisdictional analysis.
This argument entirely
misunderstands what renders a contact “non-claim
related” and what relationship between the claims and
the forum is necessary to satisfy due process. All of the
contacts that Respondents have alleged relate directly
to Petitioner’s business of making money from users’
unlawful downloading of audio files (many of which are
Respondents’ copyrighted sound recordings). It is
precisely the alleged illegality of those downloads that is
at issue here.
The very case upon which Petitioner relies is
instructive. In Bristol-Myers, non-resident plaintiffs
sought to bring suit in California against a non-resident
defendant. The non-resident plaintiffs alleged that one
of the defendant’s pharmaceuticals, Plavix, violated
various provisions of California law. In rejecting specific
jurisdiction over the defendant, the Court explained:
“What is needed—and what is missing here—is a
connection between the forum and the specific claims at
issue.” 137 S. Ct. at 1781. The non-resident plaintiffs
failed to establish that connection because they “were

26
not prescribed Plavix in California, did not purchase
Plavix in California, did not ingest Plavix in California,
and were not injured by Plavix in California.” Ibid.
The difference here is obvious. Unlike the nonresident plaintiffs in Bristol-Myers, Respondents focus
their allegations on the conduct that connects “the forum
and the specific claims at issue”—i.e., almost one
hundred million stream-ripping sessions that
Petitioner’s websites facilitated in 2018 with users in the
United States, including more than half a million in
Virginia. This is plainly not a case where “all the conduct
giving rise to the [underlying] claims occurred
elsewhere.” Id. at 1781-82. To the contrary, the
Copyright Act claims in this case arise from precisely
the contacts that establish Petitioner’s purposeful
availment, and so there is no real dispute about “an
affiliation between the forum,” be it Virginia or the
United States, “and the underlying controversy.” Id. at
1780 (quoting Goodyear Dunlop Tires Operations, S.A.
v. Brown, 564 U.S. 915, 919 (2011)).
Nor does Petitioner gain by suggesting that many of
these downloads are non-infringing. No one could
seriously believe that Petitioner’s websites are among
the most popular in the world because, as Petitioner
claims, they provide students the ability to capture “the
audio portion of video lectures” or permit parents to
isolate “the audio portion of a school concert that they
recorded.”
Pet. 3.
Regardless, at this stage,
Respondents’ allegations control. Petitioner simply
cannot escape the massive infringement his websites
accomplish.

27
3. Petitioner does not advance his case by alleging a
“circuit split” in connection with the Fourth Circuit’s
invocation of what Petitioner derisively terms “minor
Internet-initiated contacts.” Pet. 28.
Petitioner contends that the Fourth Circuit’s
reliance on his DMCA registration conflicts with cases
holding that “appointment of an agent for service of
process is irrelevant.” Pet. 28-29. But Petitioner
misunderstands the relevance of the DMCA
registration.
That registration is not merely a
procedural device to ensure service of process, as is true
in Petitioner’s cited cases. It is part of a statutory
bargain that allows a registrant like Petitioner to qualify
for the substantive DMCA safe harbor affirmative
defense to claims of copyright infringement under U.S.
law. 17 U.S.C. § 512(c). The purpose of registering an
agent with the Copyright Office is to seek legal
protection under Section 512 if the registrant is haled
into a U.S. court. See Pet. App. 18-19; Burger King, 471
U.S. at 475 (purposeful availment established when
defendant “invok[es] the benefits and protections of [the
forum’s] laws”). Petitioner cites no court of appeals
decision holding a DMCA registration irrelevant, and
indeed the existence of the registration is among the
reasons the Ninth Circuit in AMA distinguished the
decision below. See supra 24.
Nor is there any substance to Petitioner’s more
general contention that the Fourth Circuit “improperly
elevated the importance of certain insignificant internetrelated factors” in the jurisdictional analysis. Pet. 29-32.
The Fourth Circuit put those facts in their proper place,
conceding that they “might not be individually

28
sufficient to confer specific personal jurisdiction,” but
that “when viewed in the context of other
jurisdictionally relevant facts,” they “contradicted
[Petitioner’s] contention that he could not have
anticipated being haled into court in Virginia.” Pet. App.
19.
4. In a final effort to muster a conflict of authority,
Petitioner argues that the Fourth Circuit’s decision
below cannot be squared with a different Fourth Circuit
decision, Fidrych v. Marriott International, Inc. See
Pet. 24, 26, 29. This Court does not stand in review of
intra-circuit conflicts, and at any rate, no such conflict
exists. Fidrych (which the decision below acknowledged
and cited, see Pet. App. 16) held that two U.S. residents
who were injured at a Marriott-affiliated hotel in Italy
could not establish personal jurisdiction over the hotel
chain in South Carolina. The mere fact that Marriott
operated a website accessible within the state was
insufficient, particularly where the website did not
transmit files to visitors, where there was no evidence
that reservations were even made by anyone in South
Carolina, and where activity on the website was not the
basis for the claims at issue. 952 F.3d at 141-43. Here,
by contrast, the claims against Petitioner arise directly
from his forum-related contacts, and his websites
involve the direct transmission of files found absent in
Fidrych.
C. There Is No Justification For Immediate
Review.
Just as Petitioner fails to identify a split worthy of
this Court’s attention, he fails to justify the need for
intervention now.

29
First, review of Petitioner’s case is premature. The
jurisdictional analysis has three prongs. See Pet. App.
13. However, the Fourth Circuit addressed only two
prongs before remanding for the District Court to
“perform a reasonability analysis in the first instance.”
Pet. App. 21. This Court ought not grant review to
address the constitutionality of exercising personal
jurisdiction over Petitioner when no court has yet
determined that the exercise of personal jurisdiction
here would be constitutional.
Second, nothing in the decision below requires
immediate intervention. Petitioner contends otherwise,
suggesting that the decision will lead to universal,
Internet-based personal jurisdiction, will upset
international comity, and will enable default judgments
against foreign defendants unlikely or unable to defend
themselves. Pet. 35-39. But Petitioner vastly overstates
the scope and impact of the decision, which held only that
a foreign website that directly targeted a forum and
engaged in substantial and repeated contacts there could
face suit in that forum arising directly from those
contacts—and even then only if the District Court
determined that the exercise of jurisdiction would be
constitutionally reasonable.
Petitioner also feigns
concern for American companies, suggesting that the
Fourth Circuit’s reasoning would subject them to
jurisdiction everywhere in the world. Pet. 14-15. Yet
not a single amicus, foreign or domestic, has filed a brief
in support of the petition. That silence speaks volumes.
Third, Petitioner is wrong to suggest that this
Court’s immediate intervention is needed to provide
clear jurisdictional lines. Indeed, Petitioner’s own

30
sources demonstrate the peril of fashioning the Internetspecific rules he seeks. The basic premise of the petition
is that lower courts need something more than the due
process principles articulated in decisions like
International Shoe and Burger King to adjudge specific
personal jurisdiction in the context of the Internet. But
this Court has repeatedly resisted bright-line rules, and
there are significant risks to articulating special
standards or detailed guidance in this context.
Technology grows by leaps and bounds, and it
transforms the ways that websites target audiences and
generate revenues. These changes could quickly render
obsolete the Internet-specific rules that Petitioner asks
this Court to establish. Caution, not intervention, is
called for here.
II.

The Decision Below Is Correct.

The Fourth Circuit’s decision makes eminent sense
given the facts and circumstances of this case. There is
no reason for this Court to review or disturb the holdings
below.
A. Petitioner Purposefully Availed Himself Of
The Privilege Of Doing Business In The Forum.
Petitioner attempts to downplay his contacts with
Virginia and the United States. He does so by
disaggregating each of his activities and connections to
the forum and arguing that each, by itself, is insufficient
to demonstrate purposeful availment. Pet. 13-32.
Settled law forecloses that approach. A court must
assess the sum total of a defendant’s business contacts
with a forum to determine whether he has “fair warning
that a particular activity may subject [him] to the

31
jurisdiction of a foreign sovereign.” Burger King, 471
U.S. at 472 (quotation marks omitted).
All
“jurisdictionally relevant facts” must be considered.
Pet. App. 19. Under that standard, Petitioner cannot
viably claim he was “haled into a jurisdiction solely as a
result of random, fortuitous, or attenuated contacts.”
Burger King, 471 U.S. at 475 (internal quotation marks
and citations omitted).
First, in 2018 alone, Petitioner’s websites had nearly
32 million users in the United States, 542,768 of whom
were in Virginia. To be sure, the number of users is not
determinative. But the fact that the United States is
Petitioner’s third-largest market and that the websites
have tens of millions of U.S. users and are transmitting
(conservatively) nearly a hundred million music files to
U.S. users annually—all of which is well known to
Petitioner—makes his claim of surprise at being sued in
the U.S. hard to take seriously.
This Court’s precedent demonstrates the importance
of these numbers. In Keeton v. Hustler Magazine, Inc.,
for example, the Court held that regular monthly sales
of thousands of magazines in New Hampshire sufficed to
render a nationwide magazine subject to specific
jurisdiction in that state. 465 U.S. 770, 773-74 (1984). As
the Court explained, “[t]here is no unfairness in calling
[a defendant] to answer for the contents of [its national]
publication wherever a substantial number of copies are
regularly sold and distributed.” Id. at 781. Multiple
courts have applied Keeton to find personal jurisdiction
in circumstances similar to those presented here. E.g.,
Plixer, 905 F.3d at 4-5 (holding that Maine courts could
exercise jurisdiction over German website that sold its

32
software to 156 U.S. residents). Keeton also refutes
Petitioner’s contention that because his websites are
available and popular everywhere, he can be sued
nowhere. 465 U.S. at 780-81 (holding that national
publisher with national audience must reasonably
anticipate being haled into court to answer for its
contents “wherever a substantial number of copies are
regularly sold and distributed”); accord Mavrix, 647
F.3d at 1231 (“[W]here, as here, a website with national
viewership and scope appeals to, and profits from, an
audience in a particular state, the site’s operators can be
said to have ‘expressly aimed’ at that state.”).
Second, the nature of users’ contacts with the
websites confirms that the exercise of jurisdiction is
proper. The websites are anything but passive. Users
come to the sites repeatedly not just to access
information, but to accomplish the transmission of
computer files over the Internet from Petitioner’s
servers to the user’s device. While visiting the sites,
users often view multiple pages and download multiple
files. See, e.g., JA149, 154. Those visits, moreover, are
the subject of a formal legal relationship: the websites
require that prior to engaging in a stream-ripping
session, users assent to “a contractual agreement”
setting forth the respective rights and obligations of the
websites and their users. See supra 9. These factors
demonstrate the type of active and ongoing relationship
between Petitioner and users in the forum that
constitutes purposeful availment.
Third, the websites and their U.S. and Virginia users
have a quintessential Internet-based commercial
relationship. No cash changes hands, but that is the

33
norm for many of the Internet’s most popular websites
(like Google, Facebook, and CNN), which generate
revenue by enticing millions of users with “free” content
and then sell advertising space to entities wishing to
target this captive audience. See Metro-Goldwyn-Mayer
Studios Inc. v. Grokster, Ltd., 545 U.S. 913, 926-27, 93940 (2005) (describing business model). That is exactly
how Petitioner’s websites operate. Moreover, for
purposes of jurisdiction, it is critical that the advertising
at issue here is targeted to users based on (among other
things) their location. Users must agree to geotargeting through Terms of Use authorizing Petitioner’s
websites to collect “your IP address, country of origin
and other non-personal information about your
computer or device” for the purpose of “targeted
advertising based on your country of origin and other
personal information.” See supra 10. Petitioner profits
handsomely from this arrangement. JA11; cf. Grokster,
545 U.S. at 940-41 (relying on links between infringing
acts of users and increased ad revenues for defendant to
reject efforts of software maker to separate itself from
infringement). There, as here, it is immaterial that the
defendant used intermediaries to place the
advertisements.
Fourth, Petitioner has structured his websites to
encourage, rather than discourage, their use in the
United States. Website operators who truly wish to
avoid availing themselves of the U.S. market can tailor
their websites accordingly. Thus, for example, geotracking technology can be used to block access from
certain jurisdictions. See Plixer, 905 F.3d at 9 (“If a
defendant tries to limit U.S. users’ ability to access the

34
website … that is surely relevant to the intent not to
serve the United States.”); cf. Grokster, 545 U.S. at 92627, 939 (holding that file-sharing service’s intention to
induce copyright infringement was evidenced by the fact
that it “never blocked anyone from continuing to use its
software” and never “attempted to develop filtering
tools or other mechanisms to diminish the infringing
activity using their software”). Similarly, courts have
found a lack of purposeful availment in the United States
when the website was not in English. See, e.g., Triple
Up Ltd., 2018 WL 4440459, at *2 (website entirely in
Mandarin Chinese); Toys “R” Us, Inc. v. Step Two, S.A.,
318 F.3d 446, 450 (3d Cir. 2003) (website in Spanish and
listing prices in Spanish denominations, with goods only
permitted to be shipped to Spain).
Here, Petitioner makes his websites available in
English when users access them in the United States,
and he has not taken any steps to limit access from the
United States. Directly to the contrary, he uses the
available technology to target the U.S. market. Having
done so, he cannot claim surprise when he is forced to
defend his facilitation of massive online piracy in U.S.
courts. See GoDaddy, 623 F.3d at 428-29 (“GoDaddy is
aware that it earns many millions of dollars annually
from Illinois customers, and it cannot be unhappy to
have had such success in the state. Its contacts cannot
fairly be described as random, fortuitous, or
attenuated.”).
Fifth, Petitioner’s surprise at being sued here is even
more implausible given his decision to invoke the
protection of U.S. laws by registering a DMCA agent
with the Copyright Office. This decision simply cannot

35
be reconciled with his claim that he had no notion his
actions might subject him to suit within the United
States. See supra 10-11.
Sixth, as set forth in detail above, see supra 11,
Petitioner has contracted with forum-based businesses
to operate his websites. See Mavrix, 647 F.3d at 1222
(finding personal jurisdiction in California where Ohio
website did business with advertising agency, wireless
provider, and web-designer in California).
Finally, Petitioner has attempted to avail himself
not merely of U.S. consumers and businesses, but of U.S.
courts as well. Petitioner’s Terms of Use, which he
deems a “contractual agreement between you and us,”
require that “[f]or any claim brought by us against you,
you agree to submit and consent to personal jurisdiction
in and the venue of the courts in the Russian Federation
and anywhere else you can be found.” See supra 9
(emphasis added). Thus, in 2018 alone, almost 32 million
Americans agreed to be sued by Petitioner in U.S.
courts, and over 542,000 Virginians agreed to be sued by
Petitioner in Virginia courts. Having by “contract”
attempted to secure the right to hale his users into U.S.
and Virginia courts, Petitioner cannot claim surprise
when the owners of the copyrights pirated through his
websites seek to confront him in those very same courts.
Indeed, it could hardly be otherwise. Petitioner’s
approach would provide a roadmap for piracy websites,
allowing them to transmit with impunity mountains of
copyrighted content to U.S. users in violation of U.S.
copyright law simply by locating their operations
overseas. Nothing in the Due Process Clause requires
that result.

36
B. The Claims In This Case Arise Out Of
Petitioner’s Activities Directed At The Forum.
As in his briefing below, Petitioner does not directly
address the second prong of the jurisdictional analysis.
See Pet. App. 20. Instead, Petitioner appears to argue
that because some of his business activities directed at
the forum may have involved non-infringing uses, he has
“non-claim related contacts” that defeat jurisdiction.
That contention is based on a plain misreading of BristolMyers. See supra 25-26. As the Fourth Circuit correctly
observed, there is no serious doubt that Respondents’
claims arise from Petitioner’s forum-related contacts—
it is precisely “the Websites’ large audience in Virginia
for alleged music piracy and the sale of visitors’ data”
that “gave rise to [Respondents’] copyright
infringement claims.” Pet. App. 20.
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,

December 8, 2020

IAN HEATH GERSHENGORN
Counsel of Record
ISHAN K. BHABHA
ALISON I. STEIN
LAUREN J. HARTZ
JENNER & BLOCK LLP
1099 New York Ave., NW
Washington, DC 20001
(202) 639-6000
IGershengorn@jenner.com

